WAIVER

SUPREME COURT OF THE UNITED STATES

 

|

|Paul Daniels, et al. County of Alameda, California, et al.

(Petitioner) Vs (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

© _ only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

 

 

 

 

 

 

 

 

 

 

 

 

Signature: Jay Rapaport Dave 202407 27 161915-0700
Date: 7/27/21
(ype or print) Name | Jay Rapaport
© mr. O Ms. O Mrs. O Miss
Firm Keker, Van Nest & Peters LLP
Address 633 Battery Street
City & State San Francisco, CA Zip |94111
Phone (415) 391-5400 | Email jrapaport@keker.com

 

 

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

Violet Elizabeth Grayson
co.

 
